      9U.S 
 -18

   POST-PURCHASE

                OFTHEBACKLOG
SBAS MANAGEMENTREVIEWS

            Report


              Prepared
         Office of
                       ATTHE




                         by
                   Inspector
                             OF

NATIONAL GUARANTYPURCHASECENTER 

                   Number:

         DateIssued:August25,2009 


                            the

                             General

          SmallBusinessAdministration

             u.s. Small Business Administration
             Office Inspector General

                                                            

                                                                         Memorandum

    To: 
 John A. Miller                                                                             Date:
   August 25,2009

           Director, Office of Financial Program Operations 

           Ilsl Original Signedl 

 From:   
 Debra S. Ritt 

           Assistant Inspector General for Auditing

Subject: 
   SBA’s Management of the Backlog of Post-Purchase Reviews at the National 

             Guaranty Purchase Center 

             Report No. 9-18

             This report presents the results of our audit ofSBA’s management of the backlog 

             of post-purchase reviews at the National Guaranty Purchase Center (Center). By 

             the end of fiscal year (FY)2007, the Center had accumulated a backlog of 

             approximately 3,500 loans valued at over $1 billion that had been purchased from 

             the secondary market. The Center was required to perform a post-purchase review 

             on each loan to evaluate whether the lender materially complied with SBA’s rules 

             and regulations in originating, servicing, and liquidating the loans and to recover 

             improper payments for any losses incurred as a result of lender noncompliance.


             During FY 2007, the former SBA Administrator established an initiative to 

             eliminate the backlog of loans at the Center by May 2008. As part of this 

             initiative, SBA contracted with Washington Products and Services, Inc. (WPS)to 

             conduct post-purchase and charge-off reviews of the backlogged loans to identify 

             lender compliance issues. The Center also charged off 313 loans that were 

             purchased prior to 2002 without evaluating lender compliance with origination and 

             closing requirements because the Office of Capital Access (OCA)believed the 

             statute of limitations1 had been exceeded, which prevented recovery from lenders.


             Production reports prepared by the Center in November and December 2007 

             showed that WPS reviews had been completed three times faster than the Center’s


             1

                  28 use 2416 states that every action for money damages brought by an Agency of the United States, which is 

                  founded upon any contract, express or implied in law or fact, shall be barred unless the complaint is filed within 6 

                  years after the right ofaction accrues or within 1 year after final decisions have been rendered in applicable 

                  administrative proceedings required by contract or law,whichever is later. The discovery provision of28 use 

                  2416(c), however, extends this statute of limitations if facts material to the right of action are not known and 

                  reasonably could not be known by an official ofthe United States charged with responsibility to act in the 

                  circumstances.

standard
oversight
audit
effective
performed
between
Center
             purchase
              of  the
         determined
                          r e v
                      contractor
                        whether
             inbyidentifying
                   WPS      and
                                i  e w
                                    the
                                       s , r
                                          and
                                        (1)
                                   lender
                                             aising
                                                 its
                                                      p o s t
                                                noncompliance,
                                           Center             -
                                                        concerns
                                                                

                                            rpost-peuvricehwass.e
                                                        appropriately
       (3)SBAs decision tocharge off older loanswithout performing

andpurchase
Toincluding
Finally,
             reviewswasap ropriate.

             Augustcharged-of 
 charged-of charge-of 

      address15thefirstobjective,
additionalwjudgmentally
objective,       e
                       23,
                   examined
           identified
            w e        lender
                 reviewed
were todetermineselected
review   judgmentally          seven
                                      l
                                    the
                                         o a
                                     selected
                                           15
                                             n sw,
                                     noncompliance
                                           loans
                                                  e
                                                  f
                                               which
                                                      reviewed
                                                     rom    a
                                                         five
                                                           had
                                                                 issues
                                                                 that
                                                                        Ithat
                                                                          n     SBA
                                                                             response
                                                                        reviews
                                                                             (  2)
                                                                                       was
                                                                                        to
                                                                                identified charged-of 

                                                                                            not
                                                                                           these
                                                                                     performed    c
                                                                                                 by o
                                                                       30statistically sampled loans,

                                                 early-defaulted
loan. proces .

                                                             2 0 7 .
                                                                universe
                             2007and December 14, We alsoreviewed an

                                                                       loans
                                                                               of
                                                                                                      n c
                                                                                                providing
                                                                                                      WPS


                                                                                  786loansreviewed by WPS



                                                                       post-purchase

                                                                  beenSBAwere
                                                                                to
                                                                             during
                                                                                                          e r n
                                                                                 reviewsof
lendernoncompliance,


                                                                                       ToaddressifWPSthesecond

                                                                                   determine
                                                                                      the
                                                                                 randomly    selected    and
                                                                                                            or
                                                                            chargeds origination anda 
 closing

                                                                                       off without
                                                                                                                adequate
                                                                                                                s ,t
                                                                                                               were


                                                                                                                the

                                                                                                                      he

                                                                                                                 loans



                                                                                                                2 that

                                                                                                                         2





requirements.
               iflenderscomplied with

                                  c h a r g e - o f 

loans.
SBA
        p
        is
          o s
           WPS
              t
Weformerreviewed
review. System.

noncompliance
lenderscomplied
SBA     s
Weaccordance
General
            F
            of
              or
           Loan
                - p
                the
                    u
                  all
                      r c
                    United
           authorized
financialSBAassistance
Guarantys rulesAgreement
SBA
loans     were    and
                sold   r
                      on e
                          h
                        with
                      loans
                  Accounting
                            a
                   information
                  staff  to
                      during
and theCentralized Loan Chron
                              s
                          under
                  guarantees
                           g
                            to
                             u
                           the
forthesold portion oftheir 

                               l
                                e
                              determine




                               to
                                  the




                                 small
                                 a t i
                                        in
                                examined,we
       conductedwithourGovernment
                                  SBA

                          auditattheAuditing
                                 States.
                                      Section
                                    loans
                                    o roing
                                  secondarysi
                                             SBA




                                             .n
                                               A

                                               that
                                                a t
                                                      s
                                                 whether
                                            requirements
                                      System,         G
                                                   listing
                                                          loan
                                                          also
                                                        uaranty
AppendixI and oursampling methodology isprovided in Appendix
BACKGROUND 


                                               Priore
                                                     7(a)
                                             businesses
                                         mloans.arket.are
                                                      ,s e
                                                         tor v
                                                                of

                                                              made
                                                               i
                                                              thec
                                                                  f
                                                                 WPS


                                                CenterfromStandards


                                                                   e
                                                                    i
                                                                   and
                                                                    on
                                                                      l

                                                                     the
                                                                        e s ,


                                                              ofinthetheSmall
                                                                     ,a nd
                                                                    recent
                                                                             a
                                                                          loans
                                                                   reviewed
                                                                       Purchase


                                                                           form
                                                                     Lenders
                                                                               nd
                                                                           and/or

                                                                           sampled
                                                                                  interviewed
                                                                                     the
                                                                                  that
                                                                                  loan
                                                                                         Center
                                                                                         reviews
                                                                                        were
                                                                                      Tracking
                                                                       Januaryprescribed
                                                                                       loans
                                                                                  Business
                                                                                   of

                                                                              participating
                                                                        by liquidate
                                                                               credit
                                                                                  retain
                                                                                             is
                                                                                                SBA
                                                                                              charged
                                                                                        information
                                                                                              by


                                                                                government-guarante d
                                                                                                     .

                                                                                                System
                                                                                   2008toDecember 2008in

                                                                                                 the
                                                                                                     I

                                                                                                         officials
                                                                                                 identified
                                                                                                  and     whether

                                                                                                          off



                                                                                             Act toprovide

                                                                                             lenders
                                                                                         loans
                                                                                       slump,  in
                                                                                               u p
                                                                                                        under
                                                                                                  accordance
                                                                                          servicingto   half   of
                                                                                                                  lender

                                                                                                                without

                                                                                                        contained
                                                                                                            (GPTS),

                                                                                                        Comptroller

                                                                                                presented       in


                                                                                                                  a 

                                                                                                       responsibilities

                                                                                                                         and

                                                                                                                          in





                                                                                                                        with

                                                                                                                      all 7(a)

                                                                                                                       3

When
SBA   pa
      must
         u lender
           r c h a s erequests
               purchase,   the guaranty
                               loan
                             reviewsfrompayment
                                     loanthe     on a
                                             secondarydefaulted
                                          documentation market  secondarywithinmarket30

                                                               investor
                                                            evaluate              s
                                                                                                              ldaoyasn.,

After                   S BA                   r e g u l a
                                                         to
compliance with program rulesand Thisreview isSBAs primary

control
event       for ensuring  lender
              noncompliance,       compliance
                                         may         and   t
                                                    released
                                                             i o n s .
                                                                     the
                                                             preventing
                                                                    from
                                                                         lender
                                                                             improper     on payments.
                                                                                             a  loan
   I n the

guaranty,infullorinpart,and mustseekrecovery fromthelenderforimproper

payments.
of                     S BA          be                          its liability
        Center              a                                          1,700  purchased     secondary

The             inherited
marketloansactivities
                  needingwere  backlog    of approximately
                              reviewscentralized
                                         fromtheatdistrict         offices
                                                                   loans.
 2 0 4
                                                                             when.   7(a)  purchase   and

lpooastn-sp.urchasereviepwoss.t
-purchase
                                                       theinaCenter



                                                                                                            post-

liquidation
atbytheJulyCenter after centralization     resulted              steady  inincreaseIinnsufficient
                                                                                         the        staffing

                                                                                               backlog, a nd

             2007, it
performingTheselimitedreached   approximatelyreviews 3,500 on    3,200   ofIn  August
                                                                             the  3,500 2007,    W PS
                                                                                          backlogged
  began

           2       reviewsandfocused            onloanthatorigination
                               liquidationonlyactions                               closing requirements,

                                                                   aretypicallyandincluded
omitting servicing
Asredirected
Worth,          T
                   2008,WPShad completed
     ofJanuarytoconduct
                  he remaining
                     A s of
purchase reviews 1,310loans
                       and
                                  loans
                              March    31, and
                                           were
                                           2 009,
                                                   p o s
 rpeesnoduirncgTe.se
.xas. charge-of pre-pucrhcahragee-oft -
                                                  transferred
                                                    t
                                             awaiting here
                                                             p
                                                         1,566 u r
                                                               were
                                                                   c h a
                                                                       to
                                                                         s
                                                                       542
                                                                           e 

                                                                        reviews
                                                                          another
                                                                            loans
                                                                             that
                                                                                  to   reviews
                                                                                      augment
                                                                                    contractor
                                                                                    still
                                                                                   had
                                                                                                instandard

                                                                                                  and
                                                                                                 Center
                                                                                                  in
                                                                                          awaiting

                                                                                        liquidation
                                                                                                       werestaff


                                                                                                     Fort

                                                                                                      actions

 RESULTSINBRIEF 

                               $1.on25 post-purchase
 payments,
                                                                                       V. 

 The  audit
$1,055,455  identified
                   was           million      of improperreviews;      c onsisting  of:

                                                                                   was

                                                                                              $7.po6st-pIV,urchase

              that
inappropriately        missed
                  charged           in
                              off;a aloannd $157,009               $
                                                       ofliquidation 37,624  that
                                                                      proceedsoffthatand will need to
   were

       reviewed.
inappropriately   applied                    that has
                                onour on results,we   not
                Basedby WPSsample786loansdid notestimate
bereviewsperformed
                                     from
                                                          yet been  charged
                                                                     that
                                                              identify
                                                     noncompliance     at limited

                                                                          least         million 3
 of

improper
closing
 Appendix      reqIuiIr,ements.
           payments
                a
                      resulting
                  listing A
                          of
  listing
                               loans       of
                                       needing
                                              lender
                                              loans with  improper
                                                   recovery
a summaryoftheloandeficienciesisprovided in Appendix 
        is
                                                                       with
                                                                     payments
                                                                 provided  in
                                                                             loanisorigination
                                                                                    provided
                                                                              Appendix         in
a
                                                                                                   and

                                                                                                    nd

2

3
   Theremaining
     This               loanswereupfromoriginated by onelenderand wereseparatedforreview by another
          amountwas300rounded         $7,5 0,918.
                                                    contractor.

                                                                                                                          4
                                           because                                             were
WPS missed
trained,
work
were
published
            pfiles. ost-stpaufrc.hasereviews.

            of
managenot3,200
              a nd  lender
                   the
               contractor
                           deficiencies
                       Center
                sufficiently
                 Agency
                               lacked
                                 On
                             instructed
                          procedures
thequalityloanofthe More formal
                             r   e v i
                                        adequate
                                        and  SBA
                                      training
                                       e w s ,
                                                o
                                                    its
                                                  nly
                                                        employees
                                                      two
                                                 According
                                            support
                                               and
                                                     lending
                                                     from
                                                             to
                                                       aveonrage, s
                                                           SBA
                                                           SBA
                                                   supervision   team
                                                                might
                                                                         not
                                                                sufficiently
                                                                 approvers
                                                                             adequately

                                                                          resources
                                                                             supervise
                                                                       leaders
                                                                       have    when
                                                                                       the

                                                                                 assigned
                                                                formerWPSand relied they

                                                            torequirements                to

                                                                                    reviewing

                                                                             improved
                                                       somes wereextennosive,complex,  the

                                             contractorstaffhad experiencein
and difficult

                               sinceSBA procedures
                                                                                                         wereemployees,
                                                                                                                      on

icriteriawornkte,rptoreassistt.Furthethercontractor
commercial                  and

                                                                                                             charge-

                   lending
to measurable performance                 , s staffmetrinicsperforming
                             SBA contract withdelWPS       did not include detailed scopeof
             a
supervising      them.
post-purchasereviews.
Ourchargedreviewoffalsowithoutidentified $744,481ofimproperWhilepayments
                                                                         ,
                                                      iverables,oradequateacceptance
  thereviewsand theCenter in

                                                                                                   on 5 loansthat were


loans
      reviewspaonymethesents.lToheansAgency
offimproper
                bytheallowing
aWectirecommended                      them
       on, thatSBArecover millionhaveofimproper
                         $744,481
                                $ 1 . 2 5 of   yearsp.ost-purchase
                                               to
                                                   i, t did notidentify thethedeficiencies
                                                  sit
                                               improper for    mismanaged
                                                             more
                                                              payments than    6
                                                                               could
                                                                                         the
                                                                                           H
                                                                                              Centernorperformed

                                                                                             ad  the
                                                                                                           recover
                                                                                                           reviews
                                                                                              been recovered. 

                                                                                                     Agency     taken
                                                                                                                     the

                                                                                                                     of these

                                                                                                                       timely

identified               audit.
                        by the We also recommended thatSBA: developaidentifying

reviewwhenmanualpurchase reviewsassistance
                                 to  provide            are         on out;(documentation
                                                              contracted analyzing               ( 1)
                                                                                                        payments

                                                                                                            and    purchase

                                                                                                                scopes
wcriteria
oandrkthe,measurable
fraud

charge-of reco$v1er.y1.
oversight
decisions;arndeviews
 Management
lenders            f  o
                       to
                        r ,
                           allow
                             agreed
                       aforbout million
                                       performance
                        serviceinsupervising
                   inCenter          contractstothem;
                                       for
                                          to
                                            thorough
                                              seek
                                                           m
                                                        $1.25
                                                             e
                                                      recovery
                                                          of
                                                               t
                                                              the
                                                                 r i c
                                                                      o
                                                                       s
                                                                        f
                                                                         ,d
                                                         assist(the3)
devote
                                                           reviews        of
                                        toensuretherecovery ofimproperpayments.

                                 (4)take timely action to perform adequate

                                                                          ,o  r
                                                                                      cpost-pur hasrge-of 

                                                                            eliverables,
                                                                              contractor
                                                                                request
                                                                                m illion
                                                                                        2)

                                                                         contractoradequate
                                                                                           include
                                                                                            a nd

                                                                                          additional
                                                                                         in improper
                                                                                                    detailed
                                                                                                 adequate

                                                                                                      documentation
                                                                                                         payments

                                                                                                                   and

                                                                                                                        of

                                                                                                              acceptance

                                                                                                                 thereviews

                                                                                                  performingtocontractor

                                                                                        staffinresources
                                                                                            purchase   and

                                                                                                                         from

                                                Management                   notagreetheageofrecovery      should   be

identified
 pursued              on  r e a  c h e d .                            did                that        loans    or
                                                                                                      post-purchase

    charge-of reviews.
settlements
 measurement
andmanualforoversight,
contractor
                          the    remaining
                             criteria      M
                                           for
                                                  balance
                                              anagement
                                                 contractor
                                                               due
                                                                 agreed
                                           andManagement didaction
                                                 (3)   take  

                                                                  s
                                                              timelyt a
comprehensivepurchase review manualforallSBAemployeesand contractors. 

                          contractors         because      the   Center
                                                                       to
                                                                        f
                                                                           either
                                                                           ,(
                                                                             to2)

                                                                             not
                                                                              had
                                                                                  (1)
develop
                                                                                  devote
                                                                                     toperform
                                                                                   agree  to
                                                                                    already
                                                                                                 the
                                                                                                performance
                                                                                           adequate  resources
                                                                                                  adequate

                                                                                             develop
                                                                                              developeda
                                                                                                                 prior

                                                                                                                 and

                                                                                                           purchase
                                                                                                            and
                                                                                                                   to

                                                                                                                      reviewa
                                                                                                                 distributed
 

                                                                                                                                  5
RESULTS 

While  the
approved
loan
           Agency
     origination
                   made
                 and
                         p r
                     closing
ad res ed.injections.

oftheseloansReviewers
                             o
              also hadaccepted
                               g r e s ,
          by SBAofficials did notidentify material
                               requirements
                       obviousindications      in
                                      inadequate
                                                       post-purchase

MaterialLender Noncompliance WasNotDetected on Backlogged Loans 

                                                        reviews
                                                           lender
                                                   3 ofthe30loanswe
                                                                   performed    by
                                                                    noncompliance  WPS  and

                                                                                      with

                                                                                        T wo

                                                                  were notuseappropriately

                                                     fraud thattosupport
                                                ofevidence                     of proceeds

                                                                                                         reviewed.
and equity
Forexample:

                 $165,354
            Abecause
            accepted,
                               improper
                          inadequate
                            and indications
                                                  payment
                                              evidence   of    of
                                                              fraud
                                                                   went
                                                                     equity
                                                                         were
                                                                             undetected
                                                                                     d e
                                                                               injection
                                                                                not      t e onan
                                                                                             c t
                                                                                             and eearly-defaulted

                                                                                                   d use
                                                                                                     . T heof   proceeds
                                                                                                              source      of
                                                                                                                               loan

                                                                                                                              was

                                                                                                                             the

            equity
            used
            disbursed
            invoices
                        injection
                      for business
                            for        purposes. required.
                                      could
                                 inventory
                                                   not Additionally,loan
                                                     were
                                    after loanapproval,as
                          datedofsuspicious
                                                          be   verified
                                                               not
                                                                              and
                                                                       supported
                                                                                  noevidence
                                                                                     by    proceeds
                                                                                          joint
                                                                                            L
                                                                                                       existed
                                                                                                    payee
                                                                                               astly,we
                                                                                                            ofchecks
                                                                                                               found
                                                                                                                     that
                                                                                                                 $200,000
 it
                                                                                                                          or
                                                                                                                              was

                                                                                                                              paid

                                                                                                                          several

            thelenderoverlooked and WPS did notidentify.

            indications                                 activity       that   occurred     during      loan     origination     that

             WPS
             warranted inappropriately           recommended
                            a fulls lossdenialgivenof$fraud3  5 1 ,  3 4 0 a
                                                                           .  $180,000
                                                                             Thisrepair      repair
                                                                                              amount    on   another
                                                                                                            waslender
    loan  that

                                                                                                                   insufficientto

             mitigate     SBA
                    i d e n t i f i e d indicators
                                                                      . Furthermore,and    the    material
            inquestion S
            noncompliance
            reviewed
                         B
                 a $171,340A .
                           the
                               
 loan issues
                                           and
                           why thelossCenter       recommended               full denial
                                            to accepted aninadequaterepair amount resulted

                                                                                            t he
                                                                                             of   Center
                                                                                                  the   SBAguaranty.
                                                                                                               had    previously

                                                                                                                       that     W e


    $earl7y.-6defaulted psa-lyemnegnthtm.ade. 

AsWhena reprojecting
least
             s u l t
                   m
                     ,
                     illion  of
                                    paymentsresultstotalingtothe$467,845
                      improperthesample
                                  improper           payments             786loanswere
                                                                        were            in    notuidentified
                                                                                            the      n
                                                                                          Additionally,i v e r srecovered.

                                                                                                                 eo,  or
                                                                                                                    wurereview
                                                                                                                         estimateof
at

andenialidentifieda $587,610  loanthatanimproper      SBAloan officer previously   T he   guaranty   recommended
                                                                                                          should       have for full

                                                                                                                              been

denied       in   full  based    ona lessand severalarmindicationsoffraudthatownership,
                          injection,               than                          change      of          went         i nadequate

proof
injection
           of
thewerelender   equity
                   during
                            post-purchase
                             loan
                              v e r
          usedcouldforthebeintended io
                                  samefriiegd i
                                              . n a t
                                               purpose
                                                The
                                                      i o n . We
                                                              and     found
                                                                      only
                                                                    who
           described aboveinlieu oftheprior denialrecom endation.Thisisan 

andrepairapproved        by the              individuals
                                                                               no  assurance
                                                                              $7,500
                                                                                review  of
                                                                           inappropriately
                                                                                             the
                                                                                           for
                                                                                                    that
                                                                                                   required
                                                                                                  this
                                                                                                            loan
                                                                                                         loan
                                                                                                    accepted
                                                                                                                   undetected
                                                                                                                     proceeds

                                                                                                                   $242,500

                                                                                                                  wasthe
                                                                                                                                 by

                                                                                                                         completed

                                                                                                                         $180,000

 Charge-of 
 charged-of
indication
from
WPS
obtain
omitted
these
reviews
adequately

SOPs,
corrected
analyze
The



The
         a
          and
        actions
               that



amountofandoversight
Centerexperience
lacked
           sking

       Center
approvers
Center
twoFurtSBAhad
hdeliverables,
        e r ,
       Center
ofdetermine
                      there
        inappropriately




                trained
          lacked adequate
extensiveand complex  One
                           to
                             is

                    1 ofthe15

                reconcile
            servicing
                    were  and



                     questions
              by her Anverify
            documentation
                 s  supervision
               challenged
                previously
              approvers
             SBA
as ndcontract
adequacy ofthecontractor
LoansChargedImproper
Significant
                 charged
     approximately           off
                                inadequate
                              overturning
compliance with theAgency s policiesand
                              collateral
                               liquidation
                           reviewed

                         inNoformal




               whether themillion
                         $70
                                 to
                                   as
     addition,staffthetoWPSuseservice
Incontractor
                                        for


                                      WPS
                                      she
                                     of
                                    with
                         Off Withouta
                                        the
                                           lists
                                theriskduring
                   increasedprovided
                                             the
                                                oversight
                                               prior

                                                 at
                                           ofimproper
WPSReviewers Were Not Adequately Trained orSupervised

                                  p o s t - p
trheeq-ujiorbetmreanitnsi.ng.pers. colateral.

Lender     noncompliance         went
                               perform        u r c
                                         undetected

                                           reviewed
                                       instruction
                                in performing
                                              equity
                                                    h
                                            contractor
                                     ofthecontractor
                               anyrecommended
                             were
                                 Payments

                                          WPS
                                                      a
                                                       denial




                                                        s e
                                                         the
                                                       manual
                                                    denial
                                                    manage
                                         worPko.st-Purchase

                                     assigned    to
                                                 lacked
                                                               to
                   ReviewsDid NotIdentifya Liquidation Deficiency

                                                     origination
                                               actions
                                                  first   from
                                                         time
                                                    standard
                                                         because
                                   resourcesthesetosufficiently
                              conductingclassroom
                                 standard
                            former           operating
                                              employee
                                                      reviews
                                                                 c
                                                                and
                                                       instruction
                                                             stated
                                                               f i
                                                                   h
                                                                   l
                                                                    prevent
                                                              procedures.

                                                                  recommendations
        did not identify a $37,624improper payment related toa liquidation

deficiency     in                                   l oans   in   our
                                                                    the
                                                                  during


                                                           procedures
                                                        injection,use
                                                           s 

                                                               pwork
                                                                 o s
                                                                     a
                                                                     e

                                                                     t
                                                                       r
                                                                       s
                                                                     was

                                                                       -
                                                             s ofpurchase
                                                                    loan
                                                                  3,200
                                                           measurable
                                                                         and



                                                                         ,

                                                                         p
                                                                          g
                                                                           WPS


                                                                         WPS
                                                                            e
                                                                          she


                                                                           u
                                                                            nd
                                                                            not

                                                                             r
                                                                               -
                                                                       supervise
                                                                     and
                                                                                 o
                                                                               had
                                                                               of

                                                                               c h
                                                                                   f
                                                                            were(SOP)
                                                                           was


                                                                                   a
                                                                                     T




                                                                                    to
                                                                               making
                                                                                       .
                                                                                reviewers
                                                                                        he




                                                                                 available
                                                                                  p r
                                                                                     s
                                                                                      o
                                                                                       e
                                                                                        c
                                         contract notcontainor
a detailed scopeofwork for

                                                     did


                                                                                         

                                                                                          e
                                                                                            B
                                                                                         and




                                                                                             d s
                                                                                                and
                                                                                              made


                                                          ppaymoesntt-spcu.hr
acrhgaes-eof charge-of 

                                                                                             lender
                                                                                              ecause
                                                                                                This

                                                                                        reviweowrsk,.

                                                                                reviewers
                                                                                     their
                                                                                   provided
                                                                                provided a  nd
                                                                                        learn
                                                                                                were
                                                                                                 only
                                                                                              covering
                                                                                                      approvers




                                                                                                      a
                                                                                                lending

                                                                                                        in


                                                                   sampdlefepa.ousltt-.purchase
reviews,

                                                                                                        did not

                                                                                                          SBA

                                                                                                        reduced
                                                                                                         not

                                                                                                        nd
                                                                                                         WPS
                                                                                                 by reading


                                              post-purchase gucahraarngtei-eosf. revaiveewrsa.ge
,
                                                                          a                mistakes
                                                                                               on,a how
                                                                                                    nd
                                                                           did not show evidence thatSBA




                                                                        Review
                                                             post-purchase

                                                                                                          that
                                                                                                             to


                                                                                decisionsOneven when the
only

                                                                                performance
                         acceptances
 criteriafortheCentertoeffectively monitor the

                                                                                   Are
                                   313ofthe backlogged loanswith an outstanding balance

                                lenders   without
                                           originatedperforming
                                                          and     closed     the
                                                                                          at
                                                                                                reviews.
                                                                                              Risk
                                                                                                    m
                                                                                               reviews
                                                                                                      e t r
                                                                                                       for

                                                                                  loans accordance with 

                                                                                            in
                                                                                                            i c
                                                                                                             to

                                                                                                                on-

                                                                                                             the

                                                                                                          limited

                                                                                                              the




                                                                                                                s
                                                                                                                     6




                                                                                                                      the



                                                                                                                   staff

                                                                                                                  were


                                                                                                                  , 

clendersh.arge-oreviewed,wef 
 proce ds,
SBA      requirements.exceeded,
         s
undergoing
limitations
from           had  been
                            These
                             reviewsloans
                                      and
                                      p
                                          had been
                                        reventing
                                                    purchased
                                           Headquarter
                                                  the   officials
                                                      Agency
                                                                       more
                                                                     than
                                                                  believed
                                                               from
                                                                          6 years prior to
                                                                            a
                                                                     pursuing 
 statute of

                                                                                 recovery

                                                                                                         7





cpaymernetsusl.tashn,asr,ge-of 
 yearp.ost-purcharseecovered. action,

       5 ofthe7 loans
Forverification
taxperformed
 on         l o
                of equity  injection,use identified
                                           of
                                performance,
       verification,site visitreviewswhich focused
                                                    material
                                                        r  v
                                              and collateral
                     t did notidentify thedeficiencies
      these TheiAgency
                                                             deficiencies
                                                             a l
                                                        servicingu
                                                          epayment a t i orelated
                                                                    ability
                                                                   on
                                                                   and     n .
                                                                       liquidation
                                                                       or recover
                                                                     $744,481     of
                                                                                     to the

                                                                             calculation,  I RS

                                                                                       Center

                                                                         While theactions

                                                                                     improper

                                                                reviewsoftheseloansby

 allowing        them   to  sit
 theaudit$744,481wofeimproper
                                mismanaged the
                                for
                           believe
                                     more    than
                                       payments
                                       C
                                     the
                                         h a r g e -
                                                    6

                                                     o f 

                                                       could
                                         313loanscharged off withouta 

 resulted insignificantimproperpaymentsand overstated SBA               p olsots- peusr.c
                                                                      theAgency takenBased
                                                                Hadbeen
                                                              have
                                                                                         
h a s e
                                                                                            timelyon our

                                                                                                     r eview

                 mat er, of .
 Loan Recovery Needed Priorto

 Asanother
 The
seller
         not toensure
 hasAgency
 agreement
               yet
          improper
inappropriately
             rather
                  no
                       payment
                    than
                              w e
                           charged
                          applied
                            to
                       longer  the
                                   identifiedThis
                                   loan. events.
                                    occurred
                                    liquidation
                                    SBA
                                 applied  or
                                       agreement
                                                 a  $157,009
                   been appropriaterecoveryissueissoughtduring the
                                                  because
                                                had   T he
                                                       been
                                                            is

                                                        terms
                                                             WPS
                                                      proceeds
                                                           lender to
                                                                      c h
                                                                  improper
                                                               being      a r g e -
                                                                             payment
                                                                       brought   to o f
                                                                                    the on
                                                                                          r one
                                                                                            e v  i
                                                                    did not identify thatthelender

                                                                    a  standby
                                                                    misled
                                                             overcome     bySBA
                                                                         remained
                                                                                 note
                                                                                   to  provided
                                                                                      believe
                                                                                        W      the
                                                                                          ithout

                                                                                                   e
                                                                                                loan
                                                                                        attention  ofw .
                                                                                                  by the

                                                                                                         

                                                                                                      that

                                                                                                      the

                                                                                                   standby

                                                                                               regardless
 knowledge
 theby thematurity
 down
                   of
              lender
             the
                       the
                 standby
               released
                             standby
                     ofandtheconcurred
                             agreement
                           from            versus
                                              on          llooaann..
                              notethatwaswithonthestandby),
                                                        lender
                                                       the SBA
                                                       guaranty
                                                               (which
                                                                s  S  BA
                                                                   when
                                                                         relied
                                                                   request  to   on
                                                                               allow
                                                                              lender
                                                                                     in place
                                                                                     information
                                                                                       the
                                                                                       has
                                                                                                      to
                                                                                                          of

                                                                                                   provided

                                                                                            borrower
                                                                         13CFR120.524statesthat
         pay

                                                                                            misrepresented


12.
 IV.

 SBA        is
amisrepresentation                liability
      materialfacttoSBAresultedregarding           its                    the
                                                  a guaranteedimproperpayment
                                                                           Thelenderthats
should be

rRECOMMENDATIONS
  ecovered. 
 
                         in a   $157,009
 Werecommend thattheDirector,Office ofFinancialProgram Operations:

        Seek    recovery
         Appendix
           of $1,250,088       on    the guaranties   paid  on  the 6 loanslisted in


        tDevelop    a purchase reviewthatmanual
          ypesofdocumentation                                 contractorsandthatmethods
                                                could beforsubmitted              explainstoanalyze

                                                                                             thedifferent

                                                                                                      the

354...   Include
         reviews
                     review.
            ata toidentify lenderdeficienciesand potentialindicationsoffraud duringa

         dpurchase
         deliverables,
         statementsand of
                                       work,
                       detailedandscopes
                                   adequate
                            contractor
                                           of acceptance

                             documentation. 

                               recoverytoperform
         toTakeensuretimelytheaction      ofimproper
                                                         measurable  performance
                                                                            service   m e t r
                                                                                    contracts i c s
                                                       cphaayrmgpeeon-stotsf-.p
urchase charge-of 

                                                        and
                                                              criteria

                                                       adequate
                                                                       in
         contractorstaffin performing thereviewsand theCenterinsupervising
         Devoteadequate            resourcespurchasetocontractor
                                                                                 and
 reviews

                                                                                               with
                                                                                                    ,
                                                                                                    to
                                                                              toallowalongforthorough

                                                                 oversightdecisions,
                                                                                                      

                                                                                                       them.

                                                                                                        assist
                                                                                                               8



                                                                                                               the

                                                                                                        supporting


AGENCY COMMENTS
RESPONSE
     17,
entirety
        10,
          in
                 w e
OnJulyJune2009,2009,
             Appendix
               M
rrecommendations,
                 anagement  or  VI.
                  
 AND OFFICEOFINSPECTORGENERAL

                           provided
                  SBAsubmitted          a
                                   comments,
                                       its draft
                                           formal
                                  Management
                                  partially
                                                 of   c
                                                    this
                                                 agreed
                                            agreed
                                                        o
                                                     with
                                                          m e
                                                          with
                                                              n
                                                         report
                                                               3
                                                                t
                                                                to
                                                                w
                                                                 ,
                                                                  . 5
                                                                   SBA
                                                                  hich, 

                                                                        for
                                                                       are contained
                                                               recommendations
did not identify actions planned taken which are needed to be considered fully

responsive. 2, implementation.                             recommendations
      provide targetdatesbut hadfor taken thecorrectiveFinally,management
notrecommendation
                                            on below.

  ecom endation. andourevaluationofthem,aresummarized       action needed
                     Specific management comments thereportfindingsand
    to
                                                                                   4   in
                                                                                      and
                                                                                         O n

                                                                                          their

                                                                               1 and but did

                                                                                disagreed
                                                                              satisfy the

                                                                                             but

                                                                                           with


ManagementComments

Comment1 

Management              stated      that the    findings
onreviewstheearlierprocesshistorywereofcothemplcenter         and recommendations      in this
                                                                                     reengineerreport focused

resulted fromsecondary                         e t e d . before
                                                         I t said
                                          markettothepurchases
                                                                   major
                                                                  that   efforts
                                                                       many   of  to
                                                                                 the
                                                                                    post-purchase

                                                                                     cases
                                                                    processedcompleted      in   the
                                                                                               the   purchase

                                                                                                   audit

                                                                                inthedistrict officesprior to

reviews.

centralization
Management
                         thatwere sent                    center without
                                                     aaftercomprehensive   purchase   review   manual
                                                                                                    14,was

implemented
period
audit  do   covered
              not
                        further
                        in
improvementshave been made, much
                       reflect   audit.
                             Februarystated
                                   the  current
                                               that
                                           2008,
                                                   state
                                                      a nd
                                                              the
                                                             of
                                                                  August
                                                                the Center
                                                                    of the
                                                                          23,
                            by the According tomanagement,thecasesreviewed in the

                                                                            as
                                                                               2 007  to December
                                                                               significant
                                                                           large backlog    process

                                                                                           of
                                                                                                        2007

                                                                                              casesinherited

                                                                                                                                         9

from
aware      the
            of  district
                 the issues offices    has
                                  raised   in  been
                                                this
 history ofthecenter and have taken many stepstoaddress
                                                        e l
                                                        and i m i n
                                                               othera t e d . Management
                                                                         audits     that   focusedthem.

                                                                                                    stated
                                                                                                         on     they
                                                                                                                the    were
                                                                                                                     earlier
     fully
                                                                 s   assertion
 Management
oversight
Center       undertook
reviews.20 8. 

                      took
                  provided   a
                               issue
                                 to    with
                                     contract
                                  considerable
 personnelFintourththeer,Management
                               work
                               
       of    the
                                                 the
                                                   loan
                                                   C  e
                                                        audit
                                                            specialists
                                                        effort
                                                        n
                                                      saidt e r ,i
                                                              that
                                                                   to  train
                                                                   ncluding
                                                                     this
        strengthened after theimplementationofthepurchase review manualin

andFebruary
                                                                                and
                                                                                and
                                                                                  the
                                                                             training
                                                                                     about
                                                                                      stated
                                                                                      fully
                                                                                               the
                                                                                                that lackof
                                                                                               integrate
                                                                                        processing
                                                                                          process
                                                                                                        prior
                                                                                                        wasof  post-purchase

                                                                                                                   training
                                                                                                                  to  the
                                                                                                                contract
  a u
                                                                                                                 standardized

                                                                                                                               dand
i t ,t he


 OIG Response

completed
draft      ploans.os
t-purchasereviews.
 Duepurchases
          report    with
                                       a
         tothethatscopewereofourprocessed
                            deficiencies
                                          u d i t , o
                                                    inu r statistical
                                                        the
                                                  warrantingN  district
                                                              evertheless,

                                                                           sample
                                                                            offices
                                                                     recovery
 We have revised thefinalreportand are nolongerseekingrecovery onthetwo

older
                                                                                       included
                                                                                        and
                                                                                     were
                                                                                               sent
                                                                                              purchased
                                                                                                       secondary
                                                                                                       to  the    center
                                                                                   6 ofthe8 loansidentified in our

                                                                                                                  by  the
                                                                                                                         market

                                                                                                                           Center.

                                                                                                                             without


 While      Management
      theCenterOIGbeforehad major
ofcompleted,                       expressed effortsconcern
                                                          to       that
                                                              reengineer  the    OIG
                                                                                  the   focused
                                                                                       purchase        on   the
                                                                                                       process     earlier
                                                                                                                     were
    history

                                            told,                             a                 a u d i t ,
sreelvfi-egwusid.e 

theCenterperiodhadreviewed
occurred         D espite
                                    been
                    beenTabsextensively
                                                     i
                             hadthesebeenreengineering
thatpurchase policies werefol owed.

                 because     Center
                                                       n  response
                                   by our auditthattheGuaranty
                                                reengineered,
                                             developed thatef orwould
                                          officials
                                                                         s
                                                                         t
                                                                          to     previous
                                                                           taffing
                                                                           s ,t he
                                                                                      Purchase
                                                                                       was
                                                                                   improve    at
                                                                                    deficiencies
                                                                                                  an
                                                                                                 the
                                                          did not exercise adequate oversight toensure

                                                                                                         4  4 

                                                                                                       Division
                                                                                                       adequate
                                                                                                        quality
                                                                                                         noted
                                                                                                                monthsof
                                                                                                                     of
                                                                                                                    in
                                                                                                                       l e  prior
                                                                                                                          the

                                                                                                                           v e l ,
                                                                                                                         purchase

                                                                                                                       the    audit

                                                                                                                                    a
                                                                                                                                        to

                                                                                                                                      nd

Forhad example,
        recommended   d   uring    our    audit,we         identified       two    loans     where      Center       loan    officers

                                                                                                                                 s 

poverrode
oaccepting
     licies.theseAanWPSinadequate
                               full
                             reviewer denial and
                          decisionsrinepDecember
                                                  of antheSBASBA    a pguaranty
                                                                          r o v e
                                                     resulting in$758,950approving
                                                                                  r , in
                                                                                      h o compliance
                                                                                          w e v e r ,i
                                                                                                              SBA. 

                                                                                                                with
                                                                                                       nappropriately

                                                                                          oflossestoa purchase and

                                                                                                                       SBA



       7-23,
                                 a i r ,            2007      by    fully
 Although         management
                 adequately           took     issue      with
 were not trained orsupervised, evidencepresented ouraudit 
       our   assertion
                                                                         t he            that   contract        loan
                                                                                                                 in    specialists

4

     No. 8,           2007
PurchaseProcessforSection Loansat
     AuditoftheMayGuarantee                         7(a) the NationalGuaranty Purchase                                  Center,Report

                                                                                                                        10

sRecommendation
   upervised.
 1

report     supports     our     position     that   WPS       reviewers      were   not adequately        trained         or

 Management Comments

 Management           agreed      to seek    recovery        of   $752,964     on  2 ofthe8 loansquestioned

inforouronedraftloanreport
information
$288,160
                     from
                     from
                              and
                             $65,045
                            the    lenders  $37,6d2e4c.ision.
                                    suggested
                                           to
                             renderingonafinal
               priorofto$389,076              on
                                                    a
                                                   two
                                                       reduction
                                                           otherM      in
                                                                  anagement
                                                                    loans
                                                                           the recommended
                                                                             with
                                                                      3
Floans
                                                                                  also  agreed
                                                                                  recommended
                                                                          inally,management
                                                                                                    recovery
                                                                                                   to seek           amount

                                                                                                                 additional

                                                                                                        recoveries          of

                                                                                                              notageagreeof to
 

seek     recovery
theloansora prior settlement
 OIG Response

                                             reached.
                                                the   remaining                  because     of       did
                                                                                                 either      the
 Management
concur      with
themanagement
                      comments
                     SBA
      amount s recovery
                    of      s          were
                                decision
                                      for    to
                                           the
                                               generally
                                                 recover
                                                 third
                                                                 responsive
                                                                 $37,6l2o4a.ns.
                                                                $752,964       to
                                                                              on   our
                                                                                 two    r
                                                                                       of e c
                                                                                           theo m  e
                                                                                                loans
                                                          loan informationontwoalsoloansand are no

                                                                   to               W e
                                                                                                     n
                                                                                               accept

                                                                                                       d a
                                                                                                         and t i o n
                                                                                                                  to .  We

                                                                                                                      reduce

longer     recommending decision      to  seek
                                    recovery      additional
                                                  for    the    two  older            F or  the   final  l    o a n ,w  e

tocontinue    toSBA supports lossourandposition
                                           asa    r e s
                                                   that u lthe
                                                            t ,w eCenter
                                                                    are    s  $180,000     repair   was       insufficient

     mitigate
outstanding
 denial    by the    balance
                      Center     of
                                 s   $ 1
                                    legal7 1 , 3
                                            team 4 0 . T
                                                      whohis    loan
                                                              concluded,
                                                                        questioning
                                                                      was    originally
                                                                               It is
                                                                                        the
                                                                                     clear
                                                                                              remaining

                                                                                           recommended
                                                                                             that  had    the      for
                                                                                                                  lender
 full

 made any effort
 discovered
 Additionally,
relevance
                    fraud
                      t he
                               prudently make
                          toperpetuated
                            repair
                          amount      amount   by   the
                                                   was     an
                                                                closethisloanthatand certain
                                                        andborrower/guarantor
                                                                  unsolicited    offer
                                                                                          it would have

                                                                                          from    the  third
                                                                                                       lender parties.

                                                                                                                    with     no

that
opinion
from     the that
                  to the
                  actions
             lender. costs.
         their       this     on
                          repair
                           O  ur
                                   thisof
                                     action
                                           harm
                                         loan   was
                                   recommendation
                                                    caused
                                                 were     not
                                                       clearly
                                                                 SBA
                                                                 up
                                                                has
                                                                     to   standards.
                                                                         because
                                                                        their
                                                                   inappropriate
                                                                     been
                                                                                    the
                                                                             modified
                                                                                        lender
                                                                                      and
                                                                                        to
                                                                                                It acknowledged

                                                                                                   is
                                                                                            warrants
                                                                                             reflect
                                                                                                       the
                                                                                                       the
                                                                                                               OIG
                                                                                                         recovery

                                                                                                               revised

                                                                                                                       s

 amount     of     questioned
 managements responsetobeconsidered
 Recommendation2 

                                              T argetdates         forresponsive.

                                                                   fullyfinal  action   will   be  required        for

 Management Comments

 Management
comprehensive
that   covers       both pre-purchase post-purchasereviews.
                      stated    the
                         purchase     Center
                                        review   has
                                                and

                                                        already
                                                    manual        fordeveloped
                                                                      all  SBA     and   distributed
                                                                                 employees
                                                                                         T  he    and    a 

                                                                                                       contractors

                                                                                                manualcontains 

                                                                                                  11
detailed
along
needed
         steps
       with
        froman for
               l e employees/contractors
                   n d
               appendix
              the      e r .that
                             M   addresses
                               anagement
                                                 to follow
                                            guidelines
                                            stated    that
                                                            in
                                                           with
                                                           the
                                                               the
                                                                respect
                                                               purchase review
                                                                               review
                                                                                   manual
                                                                                          proces ,

                                                                   purchasetodocumentation

                                                                                            is

fully
be unnecessary
contractors. 
           use by allSBAtocreateemployees
      satisfactoryandforduplicative              a       and
                                                   separate     contractors,
                                                             manual  to be   a nd
                                                                             used that
                                                                                   onlyit would

                                                                                          by

OIG Response

Although
development  management
                 ofa       stated
                     purchase     disagreement
                               review  manual     with the
                                                satisfies  recommendation,
                                                          the actions        recom ended.

                                                                               t he

Upon     receipt of the Form
                     manual        for
                                ensure
                              1824     this recommendation,     t he OIG  will reviewthat
the

revised
could    bepurchase
            submitted,
isandsufficient,
                        m    to
                          ethods
       potentialtindicators
Recommendation3 

                                 to    that
                                    analyze
                            offraud during
                 hisrecommendation
                                              the data to
                                                   closed. r e v i
                                                           explains
                                            it adequatelyidentify
                                                                   e w .
                                                                     the
                                                                   lender

                                                                         documents
                                                                          deficiencies,

                                      will bea purchase Iftherevised manual

Management Comments

Management         partially
                        same  agreed with    m
                                          this recommendation
                                               e t r i c s ,             and  stated that the    WPS

staff
develop
       is
acceptanceheld   to the
                criteria
             performance
               31,       as     performance
                             those
                             and   applicable
                                 measurement   to  SBA   employe s.
                                                 standards
                                                            d eliverables,
                                                                 for
                                                                            a
                                                                            M nd  adequate

                                                                              anagement
                                                                            personnel         agreed  to

December
intothe   contract. 

OIG Response

                                                                       WPS
                    2009and work with WPSasrequired toimplementthestandards

                                                                                        by


While
provide  Management
           a  target  date agreed
                            for    to develop
                                incorporating standards
                                              the    standards
targetdateisneeded tofully addressthisrecom endation.

                                                                by   December
                                                                     into the WPS31,
                                                                                 contract.
                                                                                     2 009,  i t did not

                                                                                                  T his

Recommendation4

Management Comments

Management        agreed toofdevote
      thoroughthatreviews
forcontended         this is currently
                                      adequate
                               contractor
                                       being
                                                 resources
                                          purchase
                                             i m p l e  m echarge-of 

                                                         andn t e tocontractordecisions
                                                                  d . Management
Centers oversightprocessincludestheanalysisand review ofpertinentsupporting 

                                                                                  oversightand
toallow

                                                                                    stated   that  the

                                                                                                            12
lender documentation
SBAs 
 policies and  by legal   p r
                             counselo c
                                     ande      d u
                                         approving r  e s .
                                                   officials
as set forth in

OIG Response

While         management        agreed            to   implement
                                                         resources  the recommendation,     i ts comments
                                                                                            contractor
 did

forisnotthesianganalysis
notoverdescribe htadequate
                   .WhileandthenumberreviewCenterofofs approving
                      whether     adequate             current      have been  directed  to
                                                                                         proceduresmaythere

                                                                                    anddocumentation,
                                                        pertinentoversight policies
                                                                   supporting lender                     call

                                                                   officialsdevoted totheproces ,they will

                                                                                                   if

assigned
post-purchase
they
denial
             to
        challenged manage
           recommendation
                          p o
notdocubemeablentattoiondevote
                         .any s t
                           As3,200
                                of- p u
                                    the
                                     had
                                        r c
                                  sufficient
                                            h a s
                                             time
                                        contractor
                                          beenmade
                                                  e 

                                                   to
                                                     s
                                                        thoroughly
                                noted inourreport,ornlyeviewapproving
                                                              2 

                                                         purchase
                                                         by Center
need to reviewstepsworkload beforetoweensurecanconsider management
            identify      the         it will take
                                                                    s ,a
                                                                        analyze
                                                                         nd
                                                                     decisions
                                                                       o f
                                                                  staffing   i there
                                                                               c i
                                                                                is a l s
                                                                                         the
                                                                                         even
                                                                                         .
                                                                                             supporting

                                                                                      officials
                                                                                           was noon
                                                                                               when
                                                                                                    average
                                                                                                  evidence
                                                                                                    a
                                                                                           Management
                                                                                     adequatetosmanage
                                                                                                             were

                                                                                                            that

                                                                                                       previous

                                                                                                         will

                                                                                                             the

                                                                                                      comments

tobe responsivetotherecom endation.

Recommendation5 

           recoveryp.o
st-purchase charge-of 

Management Comments

Management
pursue     recovery    agreed
                           ifa
                                 with  this recommendation
                                                 or                and
                                                                    reviewstated       it  would
                                                                                   indicates      promptly

                                                                                                there are

groundsfor
OIG Response

Although          management        agreed  to  the recommendation,                  did not specify the

timely.
process Therefore,
            it
recom endation.   would implement
                               m         toensure
                                 anagement    s        thatreviews
                                                 comments      were
                                                                                i t
                                                                        arenotperformed
                                                                                fully           adequately
                                                                                           responsive to    and


                                                                                                         this
ACTIONS REQUIRED

Because
request  your
        that
implementing
Furthermore,
             youcomments
                  provide
                these
                 form
                          a did not fully addressrecommendations4 and we

                             written
                      recommendations
                       1824  must  be
                                      response  providing
                                           within
                                       provided
                                                           additional details
                                                  2 weeksfromissuance ofthis
and targetdatesforfinalaction must be provided forrecommendations1ourand If

              a                                  for all recommendations   in
                                                                              for

                                                                                                        3.

                                                                                               5, rreeppoorrtt.,


                                                                                                       14

 APPENDIX I. SAMPLED LOANS

 Loans with Post-Purchase and Charge-Off Reviews


                                                                                            SBA

 #        Loan Number                              Borrower                             Outstanding

                                                                                         Balance*

1
-
                                                                                        $253,675

2
-
                                                                                        $127,222

3
-
                                                                                        $178,692

4
-
                                                                                        $131,151

5
-
                                                                                         $75,724

6
-
                                                                                        $105,002

7                                                                                         $188,607

-

8        [FOIA ex. 2]                          [FOIA ex. 4, 6]
                            $36,788

-

9
-
                                                                                         $31,721

10
-
                                                                                        $153,273

11
-
                                                                                        $177,489

12
-
                                                                                        $156,623

13
-                                                                                         $55,150

14
-
                                                                                        $91,715

 15                                                                                       $117,990

       Totals                                                                          $1,880,822

 * 
 SBA share ofthe outstanding balance as of January 24,2008,when Oill sample was pulled


 Loans with Post-Purchase Reviews Only


                                                                                            SBA



~~
 #        Loan Number                              Borrower                             Outstanding

                                                                                         Balance*





- g­
 1                                                                                         $81,806

-
                                                                                        $237,344



 ~
 3
-

 5
-


-
9
 7
        [FOIA ex. 2]                            [FOIA ex. 4, 6]

                                                                                          $332,277

                                                                                          $207,688

                                                                                           $34,504

                                                                                          $87,583

                                                                                          $139,726

                                                                                          $287,374

                                                                                           $98,931

-

10
-
                                                                                        $351,340

11
-
                                                                                         $67,007

12
-
                                                                                        $165,355

13
-
                                                                                        $25,640

14
-
                                                                                        $211,497

 15                                                                                       $86,832

       Totals                                                                            $2,414,904

 * 
 SBA share ofthe outstanding balance as of January 24, 2008, when Oill sample was pulled


 Judgmentally Sampled Loan


                                                                                            SBA

 #        Loan Number                              Borrower                             Outstanding

                                                                                          Balance

 1        [FOIA ex. 2]                           rFOIA ex. 4. 61
 * 
 SBA share ofthe outstanding balance as of September 16,2008

                                                                                          $587,610

                                                                                                   15

APPENDIX I. SAMPLED LOANS CONTINUED

Loans Charged Off Without a Post-Purchase Review


                                                                                        SBA



~~

#

1
-

         Loan Number                             Borrower                           Outstanding

                                                                                     Balance*

                                                                                      $41,297

                                                                                      $74,984

3
-
5
-
7
 ~       [FOIA ex. 2]


             Totals
                                              [FOIA ex. 4, 6]
                                                                                       $63,768
                                                                                       $37,585
                                                                                       $86,083
                                                                                       $79,622
                                                                                      $477,180
                                                                                      $860,519
* SBA share ofthe outstanding balance as of January 24, 2008, when our sample was pulled

record
           .-line
Inc.
           I
APPENDIX SAMPLINGMETHODOLOGY 

          for
andfromSeloans
          r v
offextrwithout
aperform
                i cthe
                    e s ,guaranty
                    reviewed
cNationalteformaldGuaranty
    of 20 7.
                 .Asa reliability
                     receiving
     post-purchase of data. 

                                 (WPS)

                                       by
                             resPurchase
                                            purchase
                                             Centerloanroeviews
                                               could
                                   ult,weassessments
                                                         not     c
                                                                be
                                                                   -line post-purchase
Although theGuaranty Purchase Tracking System istheAgency s system of

                                                           p r o   e
                                                                   f si c,l
                                                                          e oans
                                                                            r s .
                                                                     independently
                                                                               also
                                                                                     reviewed
                                                                                       could
                                                reliedCenterupontoderive ourspreadsheets
                                                                                                  by
                                                                                             extracted
                                                                                  Likewise,loansnot  be
                                                                                                       Washington
                                                                                                          or
                                                                                                         that
                                                                                                                          Products

                                                                                                                differentiated

                                                                                                                 werebycharged

                                                                                                         independently

                                                                                                      maintained
                                                                      ofthe universesand were unable to

                                                                                                                            the
                                                                                                              786loanswith an

                                                                                                                                     16 





                                                                                                                                      

The
SBA      outstanding  spreadsheetbalance
        been 14, onWe verified thesampled
                 conducted
                                              of
                                               of loans
                                                    $25,000 reviewed
                                                                   or   m o rby
                                                                               e  ,WPS
                                                                                   f or    consisted     of
                                                                     betweenlistagainst23,theofficialloanfile

                                                                                        which
                                                                                     August                   and
     r eviews

records.
had
of . loans.
December
beenUpon
Analysis
                 T he
         subsequently   universe
                   consultation
                 software         (IDEA)
                                            behalf
                                          was    broken
                                                to
                                                       of   SBA
                                                              into
                                                     statistically
                                                                      two     strata
                                                                         select
                                                                               676         one  with
                                   chargedwithoffa sandtationesticiwithan,we usedloansInteractive
                                                                                                     2 007
                                                                                                       110loansthat had

                                                                                               thathadData not beenExtraction
                                                                                     15loansfrom each strata fora
                                                                                                                         charged
and

totalsamplesizeof30
Inmeasurable
     statisticalprecision er or. 10 -percent

                      sampling,orthesampling    projected estimates
                                                           value         The       in  the
                                                                                 precision   population
                                                                                               is a  measureuniverse
                                                                                                                   of the

                                                                                                                  value
                                                                                                                          have    a 

level. a9m0o-upnetrsc.ent

expected
same             difference          between        the  have        found
                                                                   been          in  the a sample    and   the  review    of thebeen

completedcharacteristics
or10confidence
          C
                    using
            alculating   i  n tthe
                                e r v
                                   at
                                      that
                                      same
                                      aal s ,   t
                                             that e
                                              would c h
                                                   have n i q u e
                                                             upper
                                                              c
                                                                  s . Sand
                                                                onfidence
                                                                           found
                                                                        amplinglower
                                                                                      if
                                                                                  level
                                                                                           

                                                                                       precision
                                                                                        limits
                                                                                           means and is
                                                                                                    theaindicated
                                                                                                          certain
                                                                                                         chances
                                                                                                                       by  r
                                                                                                                         had a n
                                                                                                                     confidence

                                                                                                                      are

                                                                                                                                 g
                                                                                                                           9 outof

                                                                                                                                    e  s , 

tbeinghathetbe, between
               i f wereviewed               all
                                         lower  of   the   loans      in  the
                                                                      limits,    total  population,      t he   resulting    values

would
WeAuditcalculated
confidenceAgency
                  mostlikely
             level. 
 No. 

                          sthe  EZ
                                  the
                                  following
                                       Quant 9 0 - p e
                                                    and
                                                       r
                                                    lowerc
                                                   softwaree n t
                                                           upper
                                                                 

                                                               limit
                                                                                  w
                                                                        projections
                                                                    program        s
                                                                                     ith  the
                                                                                      ratio
                                                                                               population
                                                                                            using
                                                                                              methodthe  Defense
                                                                                                         at a 

                                                                                                                 point  estimates

                                                                                                                      Contract


    Post-purchase Charge-
                 ProjectedtoBe Loans                                                                    Lower
              Deficiency                                $ Value of
                               Samplein Deficiencies
                                                of in Deficiencies
                                           Sample         Sample
  in                                         Limit
                                                                                                         Projection
    $


        DeficienciesinReviews
                           WPS 30
            3          $467,845                                        $7,550,918

        offDeficiencies
              Reviews   in       15           1           $37,624                                         $37,624 

                  TOTALS                      4          $505,469                                        $7,588,542

                                                                                                   17


APPENDIX III. LOANS WITH DEFICIENCIES

                                      WPS Post-Purchase Review Deficiencies

                                                                                    Deficiency   Questioned

#           Loan Number                            Loan Name                           Type         Cost

 1
-
                                                                                      B         $131,151

2       [FOIA ex. 2]                              [FOIA ex. 4]                       A,B,D,E      $171,340

3                                                                                      A,B        $165,354

                Total                                                                             $467,845


                                   Deficiencies Not Identified During Charge-Off

                                                                                    Deficiency   Questioned 

#           Loan Number                                                                Type         Cost 

1            FOIA ex. 2                                                                 C          $37,624 

                Total                                                                              $37,624


D              Totals                 Questioned Costs of $467,845 + $37,624                      $505,469


                                 Judgmental Loan-Post-Purchase Review Deficiency

                                                                                    Deficiency   Questioned

#           Loan Number                            Loan Name                           Type         Cost

1       [FOIA ex. 2]                               [FOIA ex. 4]                      A,B,C,D      $587,610


                                    Charge-Off Without a Post-Purchase Review

                                                                                    Deficiency   Improper

#           Loan Number                            Loan Name                           Type      Payment

 1
-
                                                                                     B,E        $81,641

 2
-
                                                                                  A,B,C,D,E     $477,180

-3          [FOIA ex. 2]                          [FOIA ex. 4]                          C          $42,271

 4
-
                                                                                    A,C,D        $79,622

5                                                                                     A,B,D        $63,767

                Total                                                                             $744,481


                                  Deficiency on Loan without a Charge-Off Review

                                                                                    Deficiency   Questioned

#           Loan Number                            Loan Name                           Type         Cost

1           [FUIA ex. 2]                           [FUIA ex. 4]                         C         $157,009


Deficiency Type Legend:



     B.A.    Equity Injection

             Use of Proceeds 

     C. Collateral/Liquidation 

     D. Eligibility/ Origination 

     E. Other Issues

                                                   18


APPENDIX IV. LOANS NEEDING RECOVERY
                                      Questioned
#   Loan Number        Loan Name         Cost
1                                      $131,151
2
-                                      $171,340
3   [FOIA ex. 2]       [FOIA ex. 4]    $165,354
4
-                                      $37,624
5                                      $587,610
6                                      $157,009
      TOTAL                           $1,250,088
                                                                                  19


APPENDIX V. SUMMARY BY LOAN


[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


The lender did not provide adequate support for debt being refinanced with loan 

proceeds. The loan authorization allocated $144,754 to refinance a [FOIA ex. 4] 

note, $22,150 to purchase equipment, and $83,296 for working capital. WPS did 

not obtain documentation to determine if the lender complied with the debt 

refinancing requirements of SOP 50 10 to ensure (1)there was at least a 20-

percent improvement in cash flow, (2)the new payment was at least 20-percent 

less than the previous payment, and (3)the refmancing did not payoff a creditor in 

a position to sustain a loss. We are questioning SBA’s charged off amount of 

$131,151.

[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


We are questioning the entire SBA purchase amount of $171,340 on this early-

default loan based on the following lender deficiencies: (1)unsupported use of 

proceeds, (2)unverified equity injection, and (3)undetected indications of 

borrower fraud. The lender did not provide adequate documentation to support 

that $445,000 ofloan proceeds were used for the purchase of the business. The 

lender provided a good faith estimate dated prior to loan disbursement as support 

for the use of proceeds, but there was no assurance that the loan was actually 

disbursed as documented on the estimate. Further, there was evidence a "straw 

borrower" was used to obtain the loan, but this was not questioned by the lender. 

The secretary of the borrowing business, who was not a co-borrower or guarantor 

on the loan, injected the entire $160,000 of equity into the business without the 

required standby agreement, was the apparent sales manager, and was operating 

this business and another out of the same location. While these facts show this 

individual was significantly involved in the business and indicate she was using a 

"straw borrower" to obtain the loan, the lender did not require her guaranty on the 

loan or examine her credit history and character. The lender acknowledged that it 

should have further examined her credit history, which would have allowed the 

bank to discover her past financial difficulties and potentially rethink the 

disbursement of the loan. After loan default, the lender learned that this individual 

used a "straw borrower" because she did not have the creditworthiness to obtain 

the loan herself. Rather than deny this loan in full, WPS recommended a 

$180,000 repair which was insufficient to mitigate the SBA loss. We are 

recommending recovery of the SBA guaranty purchase amount of$17l,340.

                                                                                  20


[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


We are questioning SBA’s outstanding balance of $165,354 on this early-default 

loan due to unverified equity injection, use of proceeds, and obvious indications of 

borrower fraud that were not identified during the post-purchase review. The 

WPS reviewer accepted bank statements, a wire transfer receipt, and an affidavit 

signed by the borrower as sufficient evidence of the $330,000 of required equity 

injection. While the bank statement showed $237,081 of deposits into the 

business account in 1 month, it also showed $151,318 of written checks. Copies 

of the checks were not provided to show the funds were used for business 

purposes. The remaining expenditures were also questionable because $16,638 

was spent on overdraft service charges and returned deposit fees. Further, 

personal home mortgage and car payments may have been paid from the account. 

The wire transfer receipt provided in support for the remainder of the equity 

injection was also not acceptable because it omitted the source of the funds as 

required.


Joint payee checks or paid receipts were not provided to support $200,000 of loan 

proceeds disbursed for inventory. While the lender provided invoices to support 

the alleged inventory purchases, many were dated months prior to loan approval, 

were past due, and did not show evidence of payment. Lastly, indications of fraud 

by one of the company’s owners were overlooked during the post-purchase 

review. The owner, who started the business 2 years prior to the loan request, was 

the largest contributor of equity injection, and the company’s Chief Financial 

Officer, was designated as only a 5-percent owner of the business. Even though 

there were indications of irregular activities in the business accounts he controlled, 

the lender did not question his business ownership percentage, and he was not 

required to disclose his criminal history on Form 912. After loan default, the 

lender discovered potential fraud on the part of this individual.


[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


The machinery and equipment collateral for this loan had a liquidation value of 

$94,120 at loan origination. Approximately 1 year later when the loan defaulted, 

however, the collateral had a liquidation value of only $12,785. An appraisal 

indicated that collateral items may have been missing, but there was no evidence 

that the lender questioned the borrower or attempted to locate the missing

collateral. We are recommending recovery of $37,624 as agreed to by the Center 

based on an analysis of the type of collateral, estimated liquidation expenses, and 

the liquidation value assigned to the collateral remaining at loan default.

                                                                                  21

[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


We are questioning SBA’s outstanding balance of $587,610 on this early-default 

loan because the change of ownership was not at arm’s-length, the lender did not 

verify equity injection, and there were obvious indications of fraud that were not 

detected by the lender. A $953,000 check for the disbursement ofloan proceeds 

was made payable to both the seller and borrower. The borrower, however, was 

the principal of the borrowing corporation and an officer of the seller’s 

corporation, with financial control over both businesses. As a result, the business 

purchase was not an arms-length transaction.


Further, no assurance existed that $242,500 ofthe $250,000 of required equity was 

injected into the business. A $175,000 gift, representing the majority of the 

required injection, was provided by the borrower’s mother, who was also in 

control of the trust that held the business being purchased. While funds totaling 

$269,000 were available in the principal’s personal account, there was no evidence 

any of it was ever injected into the business.


Finally, the lender was not diligent in underwriting the loan, and therefore, did not 

identify obvious indications of borrower fraud prior to disbursing the loan. The 

borrower provided powers of attorney, guaranty forms, and mortgage documents 

in order to collateralize the loan with his sister and brother-in-Iaw’s home. Using 

another person’s asset as collateral is very rare and should have raised questions. 

Further, signatures on the documents looked suspiciously similar to the applicant’s 

signature that should also have raised questions. Nevertheless, the lender 

disbursed the loan, requiring a verification of signatures within 15 days after loan 

disbursement, which was not prudent lending. The borrower had, in fact, forged 

the signatures of his sister and brother-in-law on the powers of attorney, guaranty 

forms and mortgage documents. If the lender had performed its proper due 

diligence, the loan never would have been made.


[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


There was no evidence that $98,000 of loan proceeds disbursed for debt 

refinancing was actually used for legitimate business purposes. Credit card 

statements or invoices to show the debt was incurred for business purposes were 

unavailable. We are questioning $81,641, SBA’s share of the outstanding balance 

on the loan.

                                                                                 22


[FOIA ex. 4]                                         Loan Number [FOIA ex. 2]


We identified numerous lender deficiencies related to IRS verification, equity 

injection, site visit performance, collateral abandonment, and CPC expenses. This 

was an early-default loan, and there was no evidence that the lender performed an 

IRS verification of financial information relied on for the business purchase. 

Additionally, approximately 30-percent of the equity injection was derived from 

borrowed funds without the required standby agreements. There was also no 

evidence that a timely site visit was performed or that collateral was properly 

liquidated after loan default. The collateral consisted of equipment and 5 vehicles 

with a liquidation value of $112,365 at loan origination. At default, the lender 

estimated that the equipment had a liquidation value of only $20,000. The lender 

abandoned the collateral, claiming that the business equipment had been assigned 

to the landlord who was demanding $30,000 for rent, storage and attorney fees. 

The landlord, however, had signed a Consent and Waiver for the lender’s first lien 

position on the equipment. As a result, the lender could have asserted its rights to 

the equipment. Moreover, the disposition of the five vehicles was not addressed. 

The sale proceeds from the equipment and vehicle collateral would have reduced 

the SBA loan balance. Lastly, the lender incurred an unnecessary $24,124 

expense in pursuing funds related to its second lien position on real estate 

collateral. Due to material lender noncompliance, full recovery of $477,180 

charged off by SBA is warranted.


[FOIA ex. 4]                                         Loan Number [FOIA ex. 2]


The lender failed to conduct a timely site visit and collateral inspection. The 

lender abandoned the machinery and equipment collateral, concluding that after 

the September 11, 2001, tragedy, its auction value had decreased by 40 percent. 

As the borrower defaulted on January 1,2000, more than 21 months prior to 

September 11, 2001, this event should not have impacted recovery from collateral.     

As a result, we are questioning $42,271 ($64,900liquidation value at origination 

less $8,539 in estimated expenses =
 $56,361 times 75 percent).


[FOIA ex. 4]                                         Loan Number [FOIA ex. 2]


We are questioning $79,622 on this early defaulted loan due to lender deficiencies 

related to repayment ability, equity injection, and collateral. The lender projected 

positive cash flow for an existing business which historically had negative cash 

flow. The projections included a 149-percent increase in sales that was not 

justified. Further, there was no evidence that the borrowers made the required 

equity injection of $93,000. An unsigned HUD-l Settlement Sheet was the only 

evidence provided for the majority of the equity injection. The lender also did not 

perform a timely site visit, which may have resulted in the loss of collateral.

                                                                                  23


[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


We are questioning SBA’s outstanding balance of $63,767 on this early-defaulted 

loan based on deficiencies with repayment ability, equity injection, and use of 

proceeds. The SBA loan file did not contain the lender’s credit analysis and the 

IRS transcripts of the seller’s financial information, as required. Additionally, the 

file did not contain documentation to verify that the required $57,355 of equity 

injection was made. Further, no evidence was available that the lender verified the 

use of proceeds totaling $238,000. The loan file lacked the SBA Settlement Sheet 

and copies of checks to support the loan disbursement.


[FOIA ex. 4]                                          Loan Number [FOIA ex. 2]


An SBA servicing center allowed the lender to apply proceeds from the sale of a 

portion of a business to a standby note before applying the proceeds to the SBA 

loan. However, the servicing center’s approval of this action was based on 

misleading information provided by the lender. The Standby Agreement required 

the creditor to accept interest payments only until the SBA loan was paid in full 

and prevented the creditor from taking action to enforce its claim against the 

borrower until the SBA loan was fully satisfied. Standby Agreements remain in 

effect regardless of the maturity of the note that is on standby. Nevertheless, the 

lender misled SBA into believing that the Standby Agreement no longer applied or 

had been overcome by events. The lender told SBA that the note had been on 

standby with payments allowed and that the seller had filed suit against the 

borrower. Furthermore, the lender claimed the seller was unwilling to provide 

long-term financing. Without knowledge of the Standby Agreement terms, SBA 

relied on the information provided by the lender and concurred with the lender’s 

request to allow the borrower to pay down the Standby Agreement versus the SBA 

loan. The lender’s misrepresentation resulted in a $157,009 improper payment 

that should be recovered.

                                                                                                                      24


Appendix VI. Management Comments



         DATE:        July 17, 2009 

           TO:	       Debra S. Ritt 

        FROM:               A.
                      Assistant Inspector General for Audftinr 

                      John Miller, Director
                      Office of Financial Program Operatfons
 W     IA
                                                                 0 ex. 6]

      SUBJECT:	       Draft Report on SBA’s Management ofthe Backlog ofPost-Purchase Reviews at 

                      the National Guaranty Purchase Center 

                      Project No. 8002

       Thank you for the opportunity to comment on the referenced draft audit. The audit was performed on a 

       sample of post purchase reviews and charge-offs that took place from August 23, 2007 to December 14,

       2007 on the backlog of post purchase review cases in the National Guaranty Purchase Center’s (NGPC)

       inventory.

       To help clarify the context for this and several other recent orG audits, the findings and recommendations 

       in this report focused on the earlier history of the center before major efforts to reengineer the purchase

       review process were completed. Many of the cases in this audit resulted from secondary market 

       purchases processed in district offices prior to centralization that were sent to the center without 

       completed post purchase reviews.


       As you know, the NGPC introduced in February 2008 a comprehensive purchase review manual which 

       was implemented after completion ofthe audit’s on-site work. Accordingly, the cases reviewed in the 

       audit do not reflect the current state of the center. Since the time ofthe on-site work, NGPC has realized 

       significant process improvements and eliminated much ofa large backlog of cases inherited from district 

       offices. The Office of Capital Access (OCA),Office of Financial Assistance (OFA) and Office of 

       Financial Program Operations (OFPO)management have been fully aware of the issues raised in this and 

       other audits focused on the earlier history ofthe center, and have taken many steps to address them.


      Much of this audit centered on the work product of contract loan specialists that SBA uses to process post 

      purchase reviews, and the assertion is made in the audit that the quality of their work was substandard due 

      to a lack oftraining and oversight. Prior to the time of this audit, NGPC undertook considerable effort to 

      train and fully integrate contract personnel into the work of the center, including the processing of post 

      purchase reviews. Accordingly, we take issue with the audit’s assertion about the lack oftrain ing and 

      oversight.

      After the development of the comprehensive purchase review manual in February 2008,this training 

      process was standardized and strengthened. CurrentJy, all contractors and SBA employees receive 

      comparable training, and as part of continuous process improvement, NGPC is continually building upon 

      and refining past training processes. In fact, the center is now introducing a number of revisions to the 

      10-tab purchase system that will assist in purchase reviews.


      Set forth below are our responses to each of the recommendations in your draft   audit.

          1.   Seek Recovery of $1,495,245 on the guaranties paid on the 8 loans in Appendix IV


      Response: OFPO and NGPC have reviewed the 8 loans in Appendix IV,and provide the following 

      comments: 

                      [FOIA ex. 4]  We agree that the lender did not provide adequate support for the $144,754 

                      debt being refinanced and consequently we are requesting that the lender provide its 

                      refinancing analysis. If the lender cannot provide a satisfactory analysis, NGPC will

26

